             OFFICE O F
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR


                                                                                           July 1,2013
Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Managemert-

From:          Michael P. Colombo           /11 · / /) () ./} J-...
               Western Regional    Man~A~, ~ns~m/and Evaluations
Subject:      Verification Review of Recommendations for the Inspection Report, " Museum
              Collections: Preservation and Protection Issues with Collections Maintained by
              the Fish and Wildlife Service" (C-IS-FWS-0007-2010, January 2010)
              Report No. WR-VS-FWS-0015-20 13

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review of the two recommendations presented in the subject inspection
report. Our objective was to determine whether the U.S. Fish and Wildlife Service (FWS)
implemented the recommendations as reported to the Office of Financial Management (PFM),
Office of Policy, Management and Budget. PFM reported to OIG that FWS had addressed and
provided supporting information for the two recommendations in the subject report. As a result,
Recommendation 1 was closed on March 8, 2011 , and Recommendation 2 was closed on
January 17, 2012. Based on our verification, we consider both recommendations not
implemented.

Background

        Our January 2010 inspection report, "Museum Collections: Preservation and Protection
Issues with Collections Maintained by the Fish and Wildlife Service," contained two
recommendations relating to correcting and/or mitigating, to the greatest extent possible, all
identified deficiencies at seven FWS museum repository sites and inspecting all remaining FWS
museum repositories.

       On March 15, 2010, OIG referred the recommendations to PFM for tracking and
implementation. PFM reported in a memorandum dated March 8, 2011 , that upon reviewing
documentation submitted by FWS, PFM determined that FWS had met the intent of
Recommendation 1 and considered it closed. PFM stated that Recommendation 2 remained
outstanding and that it would continue to track and monitor resolution of the recommendation.
PFM reported in a memorandum dated January 17, 2012, that upon reviewing additional
documentation, PFM determined that the FWS had met the intent of Recommendation 2 and
considered it closed.




                        O ffice of Audits, Inspections, and Evaluations I Sacramento. CA
Scope and Methodology

      The scope of this review was limited to determining whether FWS took action to
implement our recommendations. To accomplish our objective, we reviewed the supporting
documentation that FWS officials provided and discussed actions taken relating to the two
recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether FWS had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

        Our current review found that FWS has not implemented Recommendations 1 and 2. We
are requesting that PFM reinstate both recommendations and take appropriate follow-up actions.

       Recommendation 1: Correct and/or mitigate, to the greatest extent possible, all
       identified deficiencies at the seven sites identified in this report.

        On February 23,2011, FWS requested that PFM consider Recommendation 1 resolved
and implemented based on information contained in its "FY 2010 Report on Museum Property
Management and Heritage Assets." FWS' report stated that as of December 20 10, FWS had
corrected 98 percent of the deficiencies at three of the seven sites (Mason Neck and Parker Rjver
National Wildlife Refuges and Patuxent Research Refuge) and that it would complete the
remaining 2 percent during calendar year 2011. In its report, FWS also stated that corrections
were in progress at a fourth site (Rocky Mountain Arsenal National Wildlife Refuge) and would
be completed in 201 1. FWS' report did not discuss whether it had corrected any of the identified
deficiencies at the remaining three sites. Despite this omission, PFM determined that FWS had
met the intent of the recommendation and closed it.

         FWS could not provide sufficient evidence to determine where it currently stands with
correcting and/or mitigating the deficiencies at the seven sites we inspected in our 2010 report or
at the remaining FWS Federal and non-Federal repository sites. From the documentation that
was provided to OIG, it appears little has been done to implement the recommendation since
2010. The FWS national curator stated that FWS would require more time to complete the
recommendation.

       We reviewed "Appendix 3 - A Workload Analysis for the U.S . Fish and Wildlife Service
Cultural Reso urces Program" in FWS' FY 20 I I "Annual Report of Cultural Resources
Management." This report notes that museum property management represents a largely
unfunded workload. It also states that:

       FWS is falling well short of minimum acceptable standards and without an
       investment the management practices will continue to be a source of ri sk through


                                                 2
        either continued audit findings or potential litigation... . At current staffing levels
        there will be little progress in mitigating audit report findings or improving levels
        of service available for protecting cultural resources through museum property
        management, continued risk of future findings and possible litigation wi ll remain
        and likely expand.

       Based on the aforementioned information, we concluded that FWS has not corrected
and/or mitigated, to the greatest extent possible, the deficiencies at the seven sites identified in
our report. We therefore consider this recommendation not implemented.

       Recommendation 2: Inspect all remaining FWS sites that house museum collections and
       correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        FWS was unable to provide evidence that it physically inspected the seven sites we
inspected in our 2010 report or any of the remaining FWS Federal and non-Federal sites. Further,
we did not receive any plans or schedules showing when any inspections may begin. The FWS
national curator stated that inspections of museum repositories would be completed by FWS
regional staff or by field staff at the location, but at the same time, stated that FWS does not
possess anywhere near the staff required to truly address all potential deficiencies noted. He also
acknowledged that implementing Recommendation 2 would take considerably more time.

        We conc.luded that FWS has not implemented Recommendation 2.

Conclusion

        We informed FWS officials of the results of this review at an exit conference on May 23,
2013. FWS officials generally agreed with our results. We request that PFM reinstate both
recommendations from the subject evaluation report as not implemented and inform us ofthe
actions to be taken for these recommendations.

        If you have any questions about this report, please contact me at 916-978-5653.

cc:     Dan Ashe, Director, Fish and Wildlife Service
        Sharon J. Blake, Liaison Officer, Office of Financial Management
        Katherine Garrity, Deputy Division Chief, Audit Liaison Officer and Internal Control
        Coordinator




                                                   3
